United States Government
Department of Energy
memorandum

DATE: June 6, 1996

REPLY TO
ATTN OF:       IG-1

SUBJECT: INFORMATION: Report on "Audit of Department of
Energy's Activities Designed to Recover the Taxpayers'
Investment in the Clean Coal Technology Program"

TO:   The Secretary

BACKGROUND:

 In 1985, the Congress directed the Department of Energy to
 implement a Clean Coal Technology Program. The purpose of
 this Departmental initiative is to successfully demonstrate
 a new generation of advanced coal-based technologies. As a
 part of the program, the Department established a goal to
 recover an amount up to the taxpayers' investment in each
 successfully commercialized clean coal technology project.
 The objectives of the audit were to determine whether clean
 coal recoupment practices are achieving the Department's
 goal of recovering the taxpayers' investment in
 successfully commercialized projects and the impact of
 these practices on future Departmental recoupment efforts.

 DISCUSSION:

 As of December 31, 1995, the clean coal program included 42
 projects with repayment agreements predicated on the
 successful commercialization of demonstrated technologies.
 The Department's cost share for these projects was
 approximately $2.3 billion. A detailed analysis of six
 clean coal projects revealed that recoupment decisions made
 by the Department limited its ability to recover the
 taxpayers' investment. These decisions exempted foreign
 sales, excluded some domestic sales on certain projects,
 and lowered the repayment rate on some sales. As a result,
 the Department may not recoup an estimated $133.7 million
 of the taxpayers' $151 million investment in these six
 projects and may limit its opportunity to recover future
 investments in other energy technology programs. An
 analysis and justification of recoupment decisions would
 help ensure that the Department is balancing overall
 program goals of the clean coal program with their
 recoupment goal. Analysis and justification of recoupment
 decisions would also facilitate implementation of future
 Departmental technology transfer programs. These programs
 are required by the Energy Policy Act of 1992 to model
 their recoupment procedures after those of the Clean Coal
 Technology Program.

 Formal financial policies and procedures also had not been
 established to track, account for, and verify the accuracy
 of moneys due and collected from industry participants.
 Repayment policies and procedures would help ensure that
 the Department collects moneys from successfully
 commercialized clean coal projects.

The Deputy Assistant Secretary for Coal Technology, the
Deputy Controller, and the Directors, Pittsburgh and
Morgantown Energy Technology Centers, agreed with the
report's recommendations. However, the Deputy Assistant
Secretary cautioned that the greatest payback to the nation
from the program will not be in the form of repayment of
Federal cost-sharing, but rather from general contributions
to a clean environment and economic prosperity (e.g., sales
of equipment and jobs creation). Part II of this report
provides details on the audit findings and recommendations,
and Part III includes detailed management and auditor
comments




                          (Signed)

                     John C. Layton
                     Inspector General

 Attachment

 cc:   Deputy Secretary
        Under Secretary




                    U.S. DEPARTMENT OF ENERGY

                   OFFICE OF INSPECTOR GENERAL




                 AUDIT OF DEPARTMENT OF ENERGY'S

  ACTIVITIES DESIGNED TO RECOVER THE TAXPAYERS' INVESTMENT

              IN THE CLEAN COAL TECHNOLOGY PROGRAM



The Office of Inspector General wants to make the
distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be
available electronically through the Internet five to seven
days after publication at the following alternative address:
             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home
                            Page
             http://www.hr.doe.gov/refshelf.htm1

Your comments would be appreciated and can be provided on
the Customer Response Form attached to this report.

               This report can be obtained from the
                     U.S. Department of Energy
          Office of Scientific and Technical Information
                            P.O. Box 62
                    Oak Ridge, Tennessee 37831



Report Number:     DOE/IG-0391               Capital Regional
                                               Audit Office
Date of Issue:         June 1996                Germantown,
                                               Maryland 20874


                  AUDIT OF DEPARTMENT OF ENERGY'S

     ACTIVITIES DESIGNED TO RECOVER THE TAXPAYERS' INVESTMENT

               IN THE CLEAN COAL TECHNOLOGY PROGRAM


                         TABLE OF CONTENTS


                                                            Page

SUMMARY...............................................          1

PART I - APPROACH AND OVERVIEW........................          3

Introduction..........................................          3

Scope and Methodology.................................          3

Background............................................          4

Observations and Conclusions..........................          5

PART II -      FINDINGS AND RECOMMENDATIONS..............       7

1.     Recovering the Taxpayers' Energy Investment.......       7

2.     Repayment Policies and Procedures.................    12
PART III -   MANAGEMENT AND AUDITOR COMMENTS ..........   16

PART IV -    APPENDIX..................................   18

Management Comments on the Draft Report...............    18
                  U.S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES

               AUDIT OF DEPARTMENT OF ENERGY'S
  ACTIVITIES DESIGNED TO RECOVER THE TAXPAYERS' INVESTMENT
            IN THE CLEAN COAL TECHNOLOGY PROGRAM


Audit Report Number:   DOE/IG-0391

                            SUMMARY


   The Congress in 1985 directed the Department of Energy to
implement a Clean Coal Technology Program. The purpose of
the program is to successfully demonstrate a new generation
of advanced coal-based technologies and stimulate the
movement of the most promising into the domestic and
international marketplace. As part of this program, a goal
was established to recover an amount up to the taxpayers'
investment in successfully commercialized projects.

   The clean coal program is the first major initiative by
the Department without a legislative requirement to recover
the taxpayers' investment in demonstrated technologies. As
of December 31, 1995, the clean coal program included 42
projects with repayment agreements predicated on the
successful commercialization of demonstrated technologies.
The Department's cost share for these projects is
approximately $2.3 billion while industry contributed about
$3.7 billion. Our audit objectives were to determine
whether clean coal recoupment practices are achieving the
Department's goal of recovering the taxpayers' investment in
successfully commercialized projects, and the impact of
these practices on future Departmental recoupment efforts.

   A detailed analysis of six projects revealed that
recoupment decisions made by the Department limited its
ability to recover the taxpayers' investment in clean coal
projects. The decisions that were incorporated into
repayment agreements exempted foreign sales, excluded some
domestic sales on certain projects, and lowered the
repayment rate on some sales. As a result of these
decisions, the Department may not recoup an estimated $133.7
million of the taxpayers' $151 million investment in six
projects and may limit its opportunity to recover future
investments in other energy technology programs. A review
of the financial controls over the repayment process also
disclosed that the Department had not established formal
policies and procedures to handle repayments due from
sponsors.

   To strengthen the recoupment process, we recommend that
the Department formally analyze and justify any recoupment
decision in future recoupment efforts that limits its
ability to recover the taxpayers' investment in successfully
commercialized technologies, and establish and implement
financial policies and procedures to ensure that sponsor
repayments are timely, accurate, and complete. Management
in responding to the report concurred with the
recommendations.



                                    ______(Signed)________
                                    Office of Inspector General

                           PART I

                    APPROACH AND OVERVIEW


INTRODUCTION

   In 1985, the Congress directed the Department of Energy
to implement a Clean Coal Technology (CCT) Program. The
purpose of the program is to successfully demonstrate a new
generation of advanced coal-based technologies and stimulate
the movement of the most promising into the domestic and
international marketplace. As a part of this program, the
Department, with the support of the Office of Management and
Budget, established a goal to recover up to the taxpayers'
investment in each successfully commercialized clean coal
project.

   The program is the Department's first major initiative at
recoupment without a legislative requirement. As of
December 31, 1995, the Department's program included 42
projects for which the Department's cost share was
approximately $2.3 billion. In 1992, the Energy Policy Act
required the Department to model repayment procedures for
several of the Act's innovative technology transfer programs
after those used in the clean coal program. Our objectives
were to determine whether clean coal recoupment practices
are achieving the Department's goal of recovering the
taxpayers' investment in successfully commercialized
projects and the impact of these practices on future
Departmental recoupment efforts.

SCOPE AND METHODOLOGY

   The audit included an examination of the clean coal
recoupment practices for 16 of the 42 clean coal projects.
The 16 projects, with an estimated cost of $735 million, had
completed or nearly completed the technology demonstration
phase. The Department's cost share for these projects
totaled $314 million. A detailed analysis was conducted on
six of these projects where recoupment decisions affected
the ability of the Department to recover the taxpayers'
investment. The estimated cost of these projects totaled
$339 million, and the Department's cost share was $151
million. In addition to our review of the six projects, the
audit included an examination of other energy program
recoupment requirements and whether the Department analyzed
the economic impact of its clean coal recoupment decisions.
Audit work was conducted from May 1995 through January 1996
at Department Headquarters, the Pittsburgh and Morgantown
Energy Technology Centers, and at selected CCT sponsor
sites.

   Discussions were held with Headquarters' clean coal
officials and project managers at the Pittsburgh and
Morgantown Energy Technology Centers to determine (1) the
status and accomplishments of each CCT project, (2) what
controls were established to account for and track project
technology sales and repayments, and (3) what mechanism
existed to ensure the accuracy and timeliness of repayments.
These discussions were also used to obtain an understanding
of the repayment agreements and to identify any changes in
recoupment provisions. In addition, interviews were
conducted with clean coal project sponsors to obtain their
opinions regarding the commercial viability of demonstrated
technologies. We also interviewed Ohio Coal Development
Office officials to obtain their views, opinions, and
philosophy relating to recoupment since they co-funded a
number of the Department's clean coal projects and are
attempting to recover their investment. Finally, the
ability of the Department to meet the Energy Policy Act of
1992 recoupment requirements was evaluated using the
Department's recoupment practices under the CCT Program.

   Repayment provisions and subsequent changes to repayment
provisions were analyzed to determine their effect on the
ability of the Department to successfully implement its
clean coal recoupment goal. Our analysis employed three
methodologies. First, we determined what portion of the
Department's investment was at risk through the exemption of
foreign sales. Second, the impact of excluding some
domestic sales was determined by calculating the value of
exempted domestic sales and applying the appropriate
repayment rate. Third, the impact of lowering the repayment
rate was determined by applying alternative repayment rates
to domestic sales.

   The audit was performed in accordance with generally
accepted Government auditing standards for performance
audits, which included tests of internal controls and
compliance with laws and regulations to the extent necessary
to satisfy the objectives of the audit. We placed only
limited reliance on computer-generated data during this
audit, and thus, did not test the reliability of that data.
Because our review of internal controls was limited, it
would not necessarily have disclosed all internal control
and compliance deficiencies that may have existed.

   An exit conference was held on May 22, 1996, with the
representatives of the Office of Coal Technology.
BACKGROUND

   The CCT Program is a Government and industry cost-shared
partnership implemented by the Department to demonstrate a
new generation of advanced coal-based technologies and move
promising technologies into the marketplace. The emphasis
to commercialize these technologies reflects the strategic
importance of coal to the U.S. economy and the commitment to
sound environmental policies. Clean coal technology has
helped ensure that coal will continue to serve U.S. energy
interests, enhance opportunities for economic growth and
employment, and aid in meeting national and international
commitments for a clean and healthy environment. The CCT
Program also plays a major role in ensuring that the U.S.
leads the world in developing, applying, and exporting
sustainable, clean, and economically competitive energy
technologies.

   The program began in 1985 and was expanded in 1987 to
meet the recommendations of the United States and Canadian
Special Envoys on Acid Rain. The industry contribution of
about $3.7 billion was financed through sponsors as well as
other corporate partners. Under the program, the Department
may not finance more than 50 percent of the total costs of
any single project and may only share in project cost growth
up to 25 percent of the originally negotiated Government
share.

   The total cost of the 42 clean coal projects will
approximate $6 billion. The Department's share for the
current or completed projects is about $2.3 billion. These
projects were selected through a series of rounds (Rounds I
through V) of competitive solicitations over an 8-year
period (1986-1993). As of December 31, 1995, 10 projects
were completed, 9 had completed operational testing, 7 were
in operation, 5 were under construction, and 11 were being
designed. In addition to these 42 current or completed
projects, 1 project was still in the pre-award phase at the
time of our review.

   The Government's funding commitments and Federal
assistance terms are represented in cooperative agreements
negotiated for each project. All of the 42 awarded projects
contain repayment provisions agreed to by each of the
project sponsors. These repayment agreements last 20 years
and state that it is the intent of the Government to recoup
up to the full amount of the taxpayers' contribution in each
project once the technology has been commercialized. As of
December 31, 1995, three sponsors repaid the Department
$377,000 of the $33.4 million taxpayers' investment in their
projects.

   In 1992, the Energy Policy Act required the Department to
model repayment procedures for several of the Act's
innovative technology transfer programs after those used in
the clean coal program. These included Renewable Energy,
Clean Coal, and Environmental Technology Transfer Programs.
In addition, the Act specifically required the Department to
re-examine its recoupment policies and establish procedures
for its cost-share in other coal demonstration and
commercial application projects.

OBSERVATIONS AND CONCLUSIONS

   A detailed analysis of six clean coal projects indicated
that the Department limited its ability to recover the
taxpayers' financial investment through recoupment in
successfully commercialized technologies. Decisions were
made to (1) exempt foreign sales, (2) exclude some domestic
sales, and (3) lower the repayment rate. These decisions
were made without the benefit of any economic analysis to
determine their impact on the Department's goal of recouping
the taxpayers' investment. As a result, the Department may
not recoup an estimated $133.7 million on six projects and
may limit its opportunity to recover future investments in
other energy technology projects. In this regard, the
Energy Policy Act of 1992 directs the Department to model
future recoupment procedures (for environmental, renewable
energy, and innovative clean coal technology transfer
programs) after the Department's clean coal program.
Because of the potential impact of clean coal recoupment
practices on these future programs, the Department should
formally analyze and justify any recoupment decision that
limits its ability to recover the taxpayers' investment in
successfully commercialized technologies.

   Prudent business practice also dictates that mechanisms
be established to ensure that repayments due or made by
clean coal and other future energy technology program
sponsors are tracked, accounted for, and verified.
Currently, the Department does not have a formal mechanism
in place to achieve this objective. The audit found that
the Department needs to establish formal financial policies
and procedures over the repayment process. Also, the
Pittsburgh and Morgantown Energy Technology Centers need to
implement appropriate internal control mechanisms to ensure
that sponsors' repayments are timely, accurate, and
complete.

   Part II of this report provides details on the findings
and recommendations relating to the Department's activities
designed to recover the taxpayers' investment in its clean
coal technology program. Management concurred with the
report's recommendations, but cautioned that the greatest
payback to the nation will not be in the form of repayment
of Federal cost-sharing. The payback will be from general
contributions to a clean environment and economic prosperity
(e.g., sales of equipment and jobs creation). Their
comments are discussed in greater detail in Part III of the
report and the Office of Coal Technology's comments are
included verbatim in the Appendix to the report.

                           PART II
                  FINDINGS AND RECOMMENDATIONS


1.    Recovering the Taxpayers' Energy Investment

FINDING

   A goal of the Department is to recover up to the
taxpayers' investment in successfully commercialized clean
coal technologies. However, an analysis of six clean coal
technology projects indicated that the Department limited
its opportunity to recover the taxpayers' clean coal
investment by (1) exempting foreign sales, (2) excluding
some domestic sales on certain projects, and (3) lowering
the repayment rate. The Department changed the recoupment
provisions of its repayment agreements in an effort to
respond to sponsors' complaints but did not analyze or
justify the economic effect of each decision. As a result
of these changes, the Department may not recoup an estimated
$133.7 million of the taxpayers' $151 million investment in
six clean coal technology projects and may limit its
opportunity to recover future investments in other energy
technology programs.

RECOMMENDATION

   We recommend that the Deputy Assistant Secretary for Coal
Technology, working with the Office of Environmental
Management and the Office of Energy Efficiency and Renewable
Energy, formally analyze and justify any recoupment decision
in future recoupment efforts that limits the Department's
ability to recover the taxpayers' investment in successfully
commercialized technologies.

MANAGEMENT REACTION

     Management concurred with the recommendation.

                       DETAILS OF FINDING


THE DEPARTMENT'S RECOUPMENT GOAL

   The Department's policy is to recover "up to" the amount
of the taxpayers' investment in each successfully
commercialized clean coal project. This policy was included
in all of the clean coal solicitations and in each repayment
agreement. Most of the solicitations included language
similar to the following:

     "It is the policy of the DOE to recover an amount up
     to (i.e., not to exceed) the Government's actual
     contribution to the Project. Repayment will derive
     from those Projects which are successful and achieve
     commercial application... The Government's right to
     recover its contribution shall continue until either
     the Government has recouped its contribution or 20
   years have elapsed from the effective date of the
   Repayment Agreement..."

CLEAN COAL RECOUPMENT PRACTICES

   An analysis of six completed or nearly completed clean
coal projects indicated that the Department limited its
opportunity to recover the taxpayers' investment. Actions
taken by the Department included:

   *   exempting foreign sales,
   *   excluding some domestic sales on certain projects, and
   *   lowering the repayment rate.

   These actions were implemented as a part of the clean
coal solicitation process. Under the Round I solicitation,
repayment was derived from revenue generated from plant
operations beyond the demonstration phase and/or the
commercial sale, lease, manufacture, licensing, or use of
the technology. In Round II, repayment was limited to the
potential revenues from the future commercialization of the
demonstrated technology. For Round III, repayment was
limited to U.S. sales only, while the repayment rate was
adjusted from 2 to 0.5 percent of equipment sales. In
addition, other sales were exempted from recoupment at the
discretion of the Department's negotiating team. The
recoupment provisions for Round IV and V were identical to
those in Round III.

   Provided below is a description of the changes that were
made to clean coal repayment agreements.

Foreign Sales Exempted

   The Department limited its opportunity to recover an
estimated $120.3 million in four clean coal projects through
the exemption of foreign sales. A clean coal official
believed that the rising price of fuels competing with coal,
the expectations of more stringent air pollution controls,
and forecasts of the increasing need for new electric
generation capacity would push demonstrated clean coal
technologies into the domestic marketplace. However, a 1994
National Coal Council report, sponsored by the Department,
concluded that an expansion of the foreign market was
favorable. This was supported by a project sponsor that
forecast domestic and foreign sales for its technology. The
sponsor's forecast for foreign sales was approximately 1 1/2
times larger than its forecast for domestic sales. Another
reason why Departmental officials excluded foreign sales
from the recoupment process was that they believed that a
mechanism could not be established to verify sales outside
of the United States. However, further discussions with
officials indicated that the Department had not established
a mechanism to verify either foreign or domestic sales. The
absence of a verification process is discussed further in
Finding 2 of this report.
Some Domestic Sales Excluded
   The Department also exempted some domestic sales from its
repayment agreements. As a consequence, an opportunity was
missed to recover an estimated $12.7 million on two
projects. The exclusions exempted $2.5 billion in sales on
one project that could have resulted in a repayment of $12.5
million, and $200 million in sales made on the other project
during the demonstration period that could have resulted in
repayment of $200,000.

   A clean coal official on the first project stated that
sales were not included as a part of the repayment agreement
because the Department was not initially involved in the
project, and its technology was developed without any
Department funding. However, the Department invested over
$17 million to demonstrate this technology, and this
demonstration was instrumental in the successful testing and
commercialization of the technology.

   On the second project, the Department contributed $63.9
million but did not include a repayment provision for sales
made during the demonstration period. A clean coal official
stated that these sales were excluded from the repayment
agreement because the Department did not believe that sales
of the technology would occur prior to completion of the
demonstration phase. However, the project demonstration
phase lasted 3 years, and some successful test results were
available prior to the end of the demonstration period. As
a result, the market recognized the benefits associated with
the technology, and an order for the technology was placed.

Repayment Rate Lowered

   The Department also decreased the repayment rate on sales
of demonstrated technologies. The repayment rate for sales
decreased from 2 percent of gross revenues in Round II to
0.5 percent of gross revenues for Rounds III through V. As
a result of these actions, the Department lost an
opportunity to recoup an estimated $700,000 on one project.

   The Ohio Coal Development Office (OCDO), a state agency,
and the Electric Power Research Institute (EPRI), a utility
association, participated in the aforementioned project with
the Department. Each party negotiated repayment agreements
with the sponsor based on the successful commercialization
of the technology. Based on forecasted sales of the
technology, the Department can expect to recover 4.7 percent
of the taxpayers' original investment, while OCDO and EPRI
can expect to recoup 41.3 percent and 9.5 percent of their
respective investments. According to a clean coal official,
the Department's repayment rate was decreased (from 2 to 0.5
percent of gross revenues) to bring it more in line with
current business practices. Headquarters' officials could
not provide documentation supporting the 0.5 percent rate as
being the current business rate used on projects of this
type. An industry clean coal project official indicated
that the repayment rate of 0.5 percent was too low and
stated that it should have been between 1 and 5 percent
depending on the technology's commercial potential.

COMMERCIAL VIABILITY VERSUS RECOUPMENT

   Changes to recoupment provisions were made through the
solicitation process and were made in part to address the
concerns of clean coal project sponsors. However, an
economic analysis was not performed to determine the effect
of the changes on the Department's goal to recover the
taxpayers' investment in clean coal technologies. The
concerns of Department officials were ensuring that the
clean coal technologies were commercialized, improving the
timeliness of formalizing the cooperative agreements, and
responding to other industry concerns about the recoupment
provisions to ensure the industry's participation in the
clean coal program.

   Management officials believed that their recoupment
decisions would assist in making the technologies more
competitive, lessen delays in the cooperative agreement
negotiation process, and maintain industry's interest in the
program. However, the General Accounting Office, in a 1991
report, "Improvements Needed in DOE's Clean Coal Technology
Program," recommended that the Department analyze the effect
that recoupment provisions have had on industry
participation in the clean coal program and the likelihood
of recovering the Federal investment. As of January 31,
1996, the Department had not taken any action to satisfy the
General Accounting Office's concern.

IMPACT ON THE RECOVERY OF THE TAXPAYERS' INVESTMENT

   Departmental actions, made without the benefit of an
economic analysis, limited the Department's ability to
recoup the taxpayers' investment in successfully
commercialized clean coal projects. Although the potential
may exist that the Department could recover the taxpayers'
investment from domestic sales, project managers and project
sponsors indicated that the domestic market for clean coal
technologies is currently very limited, and unless market
conditions change, recoupment from future domestic sales
will be negligible. As illustrated in Table 1, the
Department limited its opportunity to recover an estimated
$133.7 million of the taxpayers' $151 million investment in
six clean coal technology projects.

                           Table 1

     Potential Dollar Impact of DOE Recoupment Decisions

   Decision                          Potential Dollar Impact
   (in millions)

   Exempted Foreign Sales                 $120.3
   Excluded Some Domestic Sales             12.7
   Lowered Repayment Rates                    .7
     Total                                $133.7

   In addition to the six projects examined as a part of
this audit, the decision to exempt foreign sales from
recoupment has much broader impact when looking at the
entire clean coal program. For instance, the foreign sales
exemption extends to an additional 19 clean coal projects
that will be completed in the future. The Department
invested over $1.4 billion in these 19 projects. The
exemption will greatly hinder the Department's goal of
recovering the taxpayers' investment in these projects when
one considers that 75 percent of the expected worldwide
growth in coal use is expected to occur outside the United
States. For example, the Department in 1993 reported that
the potential clean coal technology market for new
facilities and retrofit installations outside the United
States for the 1993-2010 period was between $571 billion and
$870 billion. Repayments from successful commercialization
of the 19 projects outside the U.S. could potentially have
resulted in the recovery of the taxpayers' investment in
these technologies.

   In addition, the Energy Policy Act of 1992 requires the
recoupment of the taxpayers' investment in other cost shared
demonstration and commercial application projects. This Act
stipulates that these other projects should model their
recoupment procedures, to the extent appropriate, after the
Clean Coal Technology Program. Under the Act, $1.8 billion
has been authorized for three technology transfer programs:
Environmental, Renewable Energy, and Clean Coal. As of
February 1996, funding for these programs had not been
appropriated. However, if funding is provided, potential
repayments could be significant, and the Department needs to
take steps to ensure that any actions that reduce the
opportunity to recoup the taxpayers' investment in these
programs are justified.

2.    Repayment Policies and Procedures

FINDING

   Prudent business practice dictates that controls be
established to ensure that moneys for which the Government
is entitled to are tracked, accounted for, and verified.
However, the Morgantown and Pittsburgh Energy Technology
Centers had not instituted any mechanism to monitor clean
coal project repayments, and the Department had not
established any formal recoupment policies and procedures.
The Centers were waiting until projects were completed and
repayments were made by project sponsors to establish such
mechanisms, and the Department did not anticipate a need for
such policies and procedures. Without appropriate policies
and procedures, the Department's ability to collect moneys
due the Federal Government from successfully commercialized
clean coal projects may be impaired.

RECOMMENDATIONS
   We recommend that the Office of Chief Financial Officer
establish financial policies and procedures over
Departmental recoupment activities. We also recommend that
the Managers of the Energy Technology Centers implement, as
quickly as possible, mechanisms to ensure that sponsor
repayments are timely, accurate, and complete.

MANAGEMENT REACTION

   Management concurred with the finding and
recommendations.

                      DETAILS OF FINDING


ENSURING TIMELY, ACCURATE, AND COMPLETE REPAYMENTS

   The clean coal program's recoupment goal is to recover up
to the amount of the taxpayers' investment in each clean
coal project. In this regard, prudent business practice
dictates that the Department have financial policies and
procedures in place to ensure that repayments made by clean
coal technology sponsors are tracked, accounted for, and
verified.

   Specific guidance on the internal controls to be
established are found in Departmental directives.
Department Order 1000.3C states that internal controls
should comprise the plans of the organization, methods, and
procedures adopted by management to provide reasonable
assurance that program objectives are achieved effectively
and efficiently and that revenues applicable to the
Department's operations are properly recorded and accounted
for. The Department's Accounting Handbook further states
that procedures to account for cash from its receipt to
final disposition must include safeguards necessary to
ensure proper control including the receiving, safeguarding,
recording, and depositing of cash on a timely basis and for
keeping the required records and accounts.

MECHANISMS TO MONITOR CLEAN COAL REPAYMENTS

   At the time of our review, the Department had not
established a financial policy for recoupment, and the
Morgantown and Pittsburgh Energy Technology Centers had not
established mechanisms to track, account for, and verify
clean coal repayments. A policy and an implementing
mechanism are needed to ensure that sales activity and
repayment reporting are monitored, repayments are accounted
for, and the accuracy and completeness of sales reports and
repayments are verified. A review of Departmental
accounting policy manuals and orders indicated that a
financial policy for the recoupment of the taxpayers'
investment in clean coal projects did not exist. A
discussion with a Headquarters' official confirmed that a
Departmental recoupment policy had not been established.
Tracking Sales Activity and Repayment Reporting

   A requirement for sponsor sales activity and repayment
reporting was included in all repayment agreements after the
Round I solicitation. The project sponsor is required to
submit an annual sales activity and repayment report
subsequent to the completion of project operations. These
reports are to detail any sales of project technology for
which the Department would be entitled to repayment.

   The Energy Technology Centers, however, had not
established a mechanism to track when sales activity and
repayment reports were due. Both Centers relied on project
sponsors for timely submission of these reports. A review
of six projects' records indicated that one annual sales
activity and repayment report had never been submitted to
the Department. The review also revealed that three reports
due on two projects had been submitted any where from 2 to
11 months late. According to the responsible clean coal
officials, they did not realize that the reports either were
late or had not been received.

Accounting for Repayments

   The Department should also implement appropriate
accounting procedures over the collection and disposition of
repayments. According to the administrative provisions of
Public Law 103-138. (Department of Interior and Related
Agencies Appropriations Act, 1994), revenues and other
moneys received by or for the account of the Department (or
otherwise generated by the sale of products in connection
with projects of the Department appropriated under this Act)
may be retained by the Secretary of Energy. These revenues
are available until expended and should be used only for
plant construction, operation costs, and payments to cost
sharing entities as provided in appropriate cost sharing
contracts or agreements. The Office of Inspector General
found that the Energy Technology Centers used similar
methods when accounting for their repayments. Both Centers
correctly transmitted and credited repayments to the
Department of Treasury's clean coal appropriation account
where the repayments offset the clean coal appropriation.
In responding to the draft report, the Office of Chief
Financial Officer indicated that additional financial
guidance pertinent to the recoupment process was warranted,
and that they will develop appropriate financial policies
and procedures over Department recoupment efforts for
inclusion in the Departmental Accounting Handbook.

Verifying Accuracy and Timeliness of Repayments

   The Energy Technology Centers also had not established a
control mechanism to verify the accuracy and timeliness of
sponsor repayments. Six repayments were received as of
December 1995. However, one payment was late by 2 months.
The clean coal official responsible for receiving the
repayment stated that he was not aware when the sponsor
should have started repaying the Department's investment.
The Department needs to develop a mechanism to ensure this
and other repayments are timely, accurate, and complete.
The Energy Technology Centers should also establish
procedures to verify the accuracy of the repayments reported
by the sponsors.

REPAYMENT MECHANISM NOT ESTABLISHED

   Controls over repayments were discussed with a
Headquarters' official. He stated that Departmental
financial policy and procedures were not established because
recoupment applied only to a single Departmental program,
the Clean Coal Technology Program. He also explained that
the Department generally does not establish a Departmentwide
financial policy for a requirement that is applicable to a
single program and left implementation up to the Energy
Technology Centers. The Headquarters' official, however,
acknowledged that the Energy Policy Act of 1992 requirement
to include recoupment in several Departmental programs
should have prompted the development of Departmentwide
financial policies and procedures.

   Officials at the Energy Technology Centers explained that
when clean coal program officials selected the first
projects in 1986, they realized that it would be several
years before any of the projects reached the
commercialization stage and recoupment became a reality.
These program officials decided to wait until projects were
completed and repayments began before implementing a
mechanism to track, account for, and verify repayments.

   In the fall of 1995, the Energy Technology Centers
established a joint process improvement team to develop
procedures for handling, tracking, accounting for, and
verifying repayments received from clean coal technology
projects. According to Morgantown and Pittsburgh officials,
the process improvement team was established to respond to
this audit's inquiries. These inquiries centered on what
mechanisms the Energy Technology Centers had established to
track, account for, and verify potential moneys owed by
clean coal technology sponsors.

   The process improvement team's first meeting was in
November 1995, and their final report was issued in April
1996. The report recommends that (1) data from annual sales
activity and repayment reports be recorded in the Reports
Receipts Tracking database, (2) repayments be processed as
an appropriation reimbursement to the Clean Coal Technology
Program, and (3) personnel responsible for oversight and
auditing ensure that these processes occur.

ASSURANCE THAT REPAYMENTS ARE TIMELY AND ACCURATE

   Without appropriate policies and procedures to properly
track, account for, and verify repayments, the Department's
ability to collect moneys due the Federal Government from
successfully commercialized clean coal projects may be
impaired. The need for these policies and procedures is
also underscored by the recoupment requirements of other
future Departmental programs. The Energy Policy Act has
authorized $1.8 billion for Innovative Coal, Environmental,
and the Renewable Energy Technology Transfer Programs.
These programs also require the repayment of the taxpayers'
investment in successfully commercialized technologies. The
lack of policies and procedures reduces the assurance that
the Department will recover the taxpayers' investment in
successfully commercialized projects.

   In addition, the Energy Technology Centers need to ensure
implementation of the recommendations of their process
improvement team. Implementation should assist the Energy
Technology Centers on accurately recouping the taxpayers'
investment in the Clean Coal Technology Program. As of
December 1995, with over $377,000 in repayments already
received and significant sums potentially due the
Department, it is crucial that a system be in place to
ensure accurate and complete accounting for all repayments.

                          PART III

               MANAGEMENT AND AUDITOR COMMENTS


   The Deputy Assistant Secretary for Coal Technology, the
Deputy Controller, and the Directors, Pittsburgh and
Morgantown Energy Technology Centers, concurred with the
report's three recommendations. However, the Deputy
Assistant Secretary cautioned that the greatest payback to
the nation from the program will not be in the form of
repayment of Federal cost-sharing, but rather from general
contributions to a clean environment and economic prosperity
(e.g., sales of equipment and jobs creation). His comments
in their entirety are included in the Appendix. Management
comments and related auditor comments by recommendation
follow.

   Recommendation 1. Formally analyze and justify any
recoupment decision in future recoupment efforts that limits
the Department's ability to recover the taxpayers'
investment in successfully commercialized technologies.

   Management Comments. Management concurred with
Recommendation 1. They agreed that the recommendation was
worthy of support and implementation. Management added that
the recommendation will be accommodated by applying a formal
process to record the analysis and justification process
used in recoupment decisions.

   Auditor Comments. Management's intended effort to
document and record the analysis and justification of their
recoupment decisions is considered responsive to our
recommendation.
   Recommendation 2. Establish formal financial policies
and procedures over Departmental recoupment activities.

   Management Comments. Management concurred with this
recommendation and stated that they planned to establish
financial policies and procedures by January 31, 1997.

   Auditor Comments. Management plans to develop financial
policies and procedures over Departmental recoupment
activities for inclusion in the DOE Accounting Handbook is
considered responsive to our recommendation.

   Recommendation 3. Implement as quickly as possible
mechanisms to ensure that sponsor repayments are timely,
accurate, and complete.
   Management Comments. Management concurred with this
recommendation and supports both Energy Technology Centers'
effort to effectively carry out their responsibilities
pertaining to repayment.

   Auditor Comments. Management's intention to support both
Energy Technology Centers' effort to track, account for, and
verify repayments is considered responsive to our
recommendation.
